t

>

V

r\ - '

,\

■

-i

n

\

No.
In the
Supreme Court of the United States

Suprc.-

<■■■•'t.u.s.

OCT DiJ 1,20

HUGO PENA
Petitioner,

office c

<

v.

UNITED STATES OF AMERICA
Respondent.
On Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Hugo Pena
10241 NW 9th St. Cir. # 109
Miami, Florida 33172
(TEL) 786-368-9545
hpenaO 1 @,vahoo.com
Petitioner Pros Se

Received7
0CT16 2020

*

i

QUESTION PRESENTED
1.- What is the appropriate standard of review, when the Eleventh Circuit Court of Appeal
improperly and controversy, Grants the Government's Motion for Summary Affirmance
recognizing that “Jurisdiction Errors are fundamental errors that warrant coram nobis relief’ and
is “a genuine claim that the district court lacked jurisdiction to adjudicate the petitioner guilty may
well be proper ground for coram nobis relief as a matter of law” and, “concluding that a defect in
the indictment, which alleged specific conduct that was no longer a federal crime, constituted a
jurisdictional error warranting coram nobis relief’, because the vessel was flagged under St. Kitts
& Nevis rather than Panama, in which the constitutionality of an Act of Congress is drawn into
question, and the QUESTION IS, Does the Supreme Court Should hold that the prosecution
commits a Due Process Violation for willful suppression of fundamental material evidence
favorable to the defense but undisclosed, when the prosecution has the ironclad constitutional duty
to disclose” and, there is a substantive question, materially evidence pursuant to 19 CFR Part 4,
“factual error material”, not disclosed, that the prosecution should have to disclose the Party in the
personal capacity under Country Party to the MARPOL at the time of MARPOL violation, at the
trial or pretrial, and is a Jurisdictional error that warrant coram nobis relief because they render the
proceeding itself irregular and invalid, when the primary duty of the justice, is to protect the public,
where Pena is the victim and lacks subject matter jurisdiction, nor present in the physical location
where a court exercises its power at the time of MARPOL violation, and indeed, “sound reasons
exist for failure to seek earlier relief’?1

1 MARPOL Art. 2 (5). Administration means the Government of the state under whose authority the ship is operating,
see Appendix D (App.8-24).
Homeland Security materially exculpatory evidence, not disclosed, Pursuant to 19 CFR Part 4 CBP Form 1300
(Vessel Entrance or Clearance Statement), see Appendix D (App. 13-15).
See, Rule 3.8 (d) (h)

i

>

ii

PARTIES TO THE PROCEEDINGS
Petitioner, Hugo Pena, was the Appellant in the court below.
Respondents, United States of America; were the Appellees in the court below.
United States District Court for the Southern District of Florida, Hugo Pena v. United States;
The Petition for a Writ of Error Coram Nobis, Docket No: 0:19-cv-62889-WPD (Secondary Case
Number: 0:18-cv-60984-WPD), District Judge, Judgment entered on December 30th, 2019.
United States Court of Appeal for the Eleventh Circuit, Hugo Pena v. United States; No: 2010124-BB, Judgment entered on July 22nd, 2020.

{

1

iii

TABLE OF CONTENTS
Page
QUESTION PRESENTED

1

PARTIES TO THE PROCEEDINGS

ii

INDEX OF APPENDICES

iii

TABLE OF AUTHORITIES

v

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS RULES INVOLVED

2

STATEMENT OF THE CASE

4

A. Factual and Procedural History

6

REASONS FOR GRANTING THE WRIT

8

(1) There is and was no other available avenue of relief.

8

(2) There is a substantive error that involves a matter of fact of the most fundamental
character which has not been put in issue or passed upon and which render the
proceeding itself irregular and invalid”, Jurisdiction error.......................................

10

CONCLUSION

13

APPENDIX
Appendix A Opinion and Judgement of the United States Court of Appeals for the <
Eleventh Circuit.
(Unpublish, July 22nd, 2020).................................................................... App. 1
Appendix B Judgement of the United States District Court for the Southern District of
Florida.
(December 30th, 2019)............................................................................ App. 5
Appendix C Order Denying Rehearing in the United States Court of Appeals for the
Eleventh Circuit.
(August 25th, 2020)................................................................................ App. 7

i

i

iv
Appendix D Jurisdictional error is Fundamental Error, this Prosecution failed, for not
disclose fundamental materially exculpatory evidence in government’s
possession favorable to defense, that made this proceeding irregular and
invalid. Filed on Brief & Panel Rehearing.
(July 24th, 2020 & July 31st, 2020)......................................................... App. 8
Permanent Certificate of Registry by St Kitts & Nevis Authority.
(February 2009 through April 2012)..........................................
Deletion Certificate of Registry by St Kitts & Nevis Authority
(May 11th, 2010)....................................................................

App.9

App. 11

CBP Form 1300 (02/02) Homeland Security by 19 CFR Part 4. Vessel
Entrance or Clearance Statement.
(April 15th, 2010)................................................................................... App. 13
Full Term International Oil Pollution Prevention Certificate issue by
International Register Shipping (IS) on behalf of St Kitts & Nevis.
(February 2008 through Sept 2013)....................................................... App. 16
“Island Express I” Detail Port State Control Inspection, USCG, Class
Society International Register of Shipping, Flag State: St Kitts & Nevis
(May 4th, 2010)..................................................................................... App. 23
Appendix E Petition for Rehearing in United States Court of Appeals for the Eleventh
Circuit.
(July 31st, 2020).................................................................................... App. 25
Appendix F

Criminal Jury Trial
Transcript Excerpts................................................................................ App. 30

I

t

V

TABLE OF AUTHORITIES
Cases

Page

United States v. Pena, 684 F.3d 1137 (11th Cir. 2012)

4,6

Brady Rule. Brady v. Maryland, 373 U.S. 83 (1963)

passim

Peter, 310 F 3d at 711,715-16

passim

Carlisle v United States, 517 U.S. 416, 429, 116 S.Ct. 1460, 1467 (1963)

passim

Alikhani v. United States, 200 F.3d 732 (2000)

8, 10

Morgan, 346 U.S. at 509 n. 15, 74 S.Ct. 247

10

Spencer v. Kemna, 523 U.S. 1, 118 S.Ct. 978, 140L.Ed.2d 43 (1998)

10

Wolfe v. Coleman, 681 F.2d 1302, 1305 (11th Cir. 1982)

11

Minor v. Dugger, 864 F.2d 124, 126 (11th Cir. 1989)

11

Kyles v. Whitley, 514 U.S. 419 (1995)

.passim

U.S. v Mills, 221 F.3d 1201, 1203 (11th Cir. 2000)

passim

Constitutional and Statutory Provisions
U.S. Const. Art. II § 2

6

U.S. Const. Amend. IV

2

U.S. Const. Amend. V

.2

U.S. Const. Amend. VI

2

U.S. Const. Amend. XIV

3

Rule 3.8 Special Responsibility of Prosecutor

4

Act to Prevent Pollution from Ships (APPS), 33 U.S.C. § 1908: US Code - Section 1908:
Penalties for violations by Foreign Country.....................................................................

.4

33 U.S. Code § 1907.Violations
18 U.S.C. §241

6, 7,9
2

I

t

vi
18U.S.C. §242

2

28 U.S.C. § 2255

5

19 CFR Part 4 “Vessel Entrance or Clearance Statement”.
(CBP Form 1300 02/02)...................................................

passim

Other Authorities
International Convention for the Prevention of Pollution from Ships, 1973, as modified
by the Protocol of 1978 (MARPOL) Annex I, Regulations for the Prevention of Pollution
by Oil............................................................................................................................ passim
Art. 2 (5)

i

Art. 4 (2)

6

Art. 5 (2)

■4,8

t

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARY
Petitioner, Hugo Pena respectfully prays that a writ of certiorari issue to review the judgment
of the United States Court of Appeals for the Eleventh Circuit below.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the Eleventh Circuit, Hugo Pena vs.
United States of America, case number 20-10124-BB is unpublished appears at Appendix A, (App.
1-4).
The opinion of the Southern District Court of Florida. Docket No. 0:19-cv-62889-WPD
(Secondary Case Number: 0:18-CV-60984-WPD), appears at Appendix Bj (App. 5-6) to the petition
and is published in the Federal Reporter.
JURISDICTION
The United States Court of Appeals, Eleventh Circuit entered its judgment on July 22nd, 2020.
The Petition for Panel Rehearing appears at Appendix E, (App. 25-29) with materially evidence
disclosed, addendum 2 appears at Appendix D, (App. 8-24) for decision of the entire matter in
controversy and filed on July 31st, 2020.
A timely petition for rehearing was denied by the United States Court of Appeals Eleventh
Circuit, on August 25th, 2020 and a copy of the order denying Panel Rehearing is attached as
Appendix C, (App. 7).
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254 (1).

/

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS RULES INVOLVED.
1.- This case involves the Fourth Amendment to the United States Constitution, which guards
against unreasonable searches and seizures, along with requiring any warrant to be judicially
sanctioned and supported by probable cause. Pena was kidnapped and imprisoned under Color of
Federal Law Violation, Rule 241-242, on June 10th, 2010 without any warrant and non-supported
by a probable cause, his house was stormed, his family was threatened included a child four years
old, in deprivation of his civil rights, knowingly that Pena is not a crew member, nor a surveyor
by the country party to the MARPOL, neither was present in the physical location where a court
exercises its power at the time of MARPOL violation.
2. - This case involves the Fifth Amendment to the United States Constitution, protects against
abuse of government authority in a legal procedure.
Grand Jury operated in a closed deliberation proceeding and the prosecutor in abuse of power,
created fraudulent scheme based on Jurisdictional Error, returning the indictment on June 15th,
2010, see Appendix B (App. 8), by altering/forgery the country party to the MARPOL at the time
of MARPOL violation, putting Pena in double jeopardy, a flagrant constitutional violation, where
required to disclose, "Time & Venue" of MARPOL violation.
Prosecution violate the constitutional duty to disclosed fundamental materially evidence to
validate the Country Party and the person in the personal capacity under Country Party to the
MARPOL at the time of MARPOL violation, materially evidence pursuant to 19 CFR Part 4,
fundamental to avoid misrepresentation, precisely on April 15th, 2010, knowingly that St Kitts &
Nevis is the Country Party to the MARPOL rather than Panama and, if it was disclosed, the
Prosecution shall be refrained from prosecuting a charge against Pena that the prosecutor had
known is not supported by probable cause, because the prosecution has knowingly that Pena is not
a crew’s member neither St Kitts & Nevis Ship surveyor, and was not present in the physical
location where a District Court exercises its power at the time of MARPOL violation, and thus,
"sound reasons exist for failure to seek earlier relief’ U.S. v. Mills, 221 F.3d 1201, 1203 (11th Cir.
2000), in other words, the prosecution require to disclose, at trial or pretrial, not disclosed in
deprivation of Pena’s right to defense. See, Appendix D (App. 13-15).
Grand Jury are given specific instructions regarding the law by the judge. Many constitutional
restrictions do not apply during grand jury proceedings. The exclusionary rule states that evidence
obtained in violation of the Fourth, Fifth or Sixth amendments cannot be introduced in court
because they render the proceeding irregular and invalid.
3. - This case involves the Sixth Amendment to the United States Constitution which sets forth
rights related to criminal prosecutions.
A forum selection clause seeks to provide a court with "personal jurisdiction" and to establish
"Venue."
Personal jurisdiction is the court's power to exercise authority over a party.

/

3

Hugo Pena (Pena) is the Party in this case and was not cognizable by actually country party to
the MARPOL and did not have any duty to conduct a complete MARPOL inspection under
country party to the MARPOL, “St Kitts & Nevis”, nor Pena was present in the physical location,
where a court exercises its power at the time of MARPOL violation, in February through May
2010, and it “is a genuine claim that the district court lacked jurisdiction to adjudicate the petitioner
guilty” see Peter, 310 F 3d at 711, 715-16, Appendix A (App.2) and thus, Pena lacks subject matter
jurisdiction as a matter of law, see Appendix D ( App. 8-24)
Prosecution violated constitutional duty to disclose the actually Party under Country Party to
the MARPOL at the time of MARPOL violation, materially evidence pursuant to 19 CFR Part 4,
“factual error material” to disclose person & country party to the MARPOL in February through
May, 2010, and thus, “sound reasons exist for failure to seek earlier relief’ U.S. v. Mills, 221 F.3d
1201, 1203 (11th Cir. 2000).
VENUE is the physical location of the “Island Express I” the subject matter at Port Lau Dania,
Florida, where a court exercises its power and concur with the country party to the MARPOL at
the time of MARPOL violation, and St Kitts & Nevis was the country party to the MARPOL,
rather than Panama, and Pena is not a St Kitts & Nevis Surveyor, materially evidence pursuant to
19 CFR Part 4, factual error material not disclosed in government possession.
Thus, this clause seeks to provide a court located in a specific location with the power to resolve
a dispute, like a Jurisdiction error is a Fundamental error that warrant a Coram Nobis relief and
the Prosecution has constitutional duty to disclose.
4. - This case involves the Fourteenth Amendment to the United States Constitution, which its
Due Process Clause prohibits state and local governments from depriving persons of life, liberty,
or property without certain steps being taken to ensure fairness.
The violation is referring to unfair or unequal treatment of Pena, his right recognition and
equality before the law. The prosecution has the Constitutional duty to disclose the country party
and the Person in the personal capacity under country party to the MARPOL at the time of
MARPOL violation, pursuant to Rule 3.8, evidence that could undercut its case and that a
prosecutor should not be the architect of a proceeding that does not comport with standards of
justice, i.e. jurisdictional materially exculpatory evidence in the government's possession that is
favorable to the defendant, not disclosed at trial, nor pretrial, the vessel entrance or clearance
statement, materially evidence pursuant to 19 CFR Part 4, “factual error material”, to the validity
and regularity of the legal proceeding itself’, Carlisle v United States 517 U.S. 416, 429, 116 S.Ct.
1460, 1467 (1963), involve the nationality of a country party to the MARPOL (St Kitts & Nevis)
at the time of MARPOL violation, and there is a “reasonable probability” that the outcome of the
trial would have been different, had the evidence been disclose by the prosecutor and thus, is a
Jurisdictional Error, that warrant coram nobis relief and in abuse of power discretion, district court
deny his petition and thus, "sound reasons exist for failure to seek earlier relief’ U.S. v. Mills, 221
F.3d 1201, 1203 (11th Cir. 2000).

4

In Brady, the Supreme Court held that “Suppression by the prosecution of evidence favorable
to an accused who has requested it violates due process where the evidence is material either to
guilt or to punishment, irrespective of the good faith or bad faith of the prosecution”.
5. - This case involves the Act to Prevent Pollution from Ships (APPS), 33 U.S.C. § 1908: US
Code - Section 1908: Penalties for violations by Foreign Country, where St Kitts & Nevis rather
that Panama is the Country Party to the MARPOL at the time of MARPOL violation, materially
evidence pursuant to 19 CFR Part 4 “factual error material”, not disclose.
(f) Referrals for appropriate action by foreign country Notwithstanding subsection (a), (b), or
(d) of this section, if the violation is by a ship registered in or of the nationality of a country
party to the MARPOL Protocol or the Antarctic Protocol, or one operated under the authority
of a country party to the MARPOL Protocol or the Antarctic Protocol, the Secretary, acting in
coordination with the Secretary of State, may refer the matter to the government of the
country of the ship's registry or nationality, or under whose authority the ship is
operating for appropriate action, rather than taking the actions required or authorized
by this section.
A Violation of United States Constitution is a high issue that warrant coram nobis relief, when
prosecutor intentionally misrepresent the law, (APPS), 33 U.S.C. § 1908, Id. MARPOL Art 5 (2),
by willful suppression of actually country party to the MARPOL, involving “the duty to conduct
a complete MARPOL inspection under actually country party to the MARPOL", when in truth and
in fact, the Island Express is the subject matter and St Kitts & Nevis is the Country Party to the
MARPOL rather than Panama at the time of MARPOL violation, and Pena is not cognizable by
this country party to the MARPOL and thus, "sound reasons exist for failure to seek earlier relief’
U.S.v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000).
6.- This case involves Rule 3.8, “Special Responsibility of Prosecutor” in a criminal trial. The
prosecution violated constitutional duty to disclose materially evidence pursuant to 19 CFR Part
4, “factual error material”, not disclosed, validating ship registered in the nationality of a country
party to the MARPOL at the time of MARPOL violation, as it should disclosed the party relating
to the inspection under this country party to the MARPOL (St Kitts & Nevis) at this time and not
disclosed, and thus, is a Jurisdictional error that warrant coram nobis relief, which render the
proceeding itself irregular or invalid, a requirement similar to disclosure requirements established
by the Supreme Court in Brady v. Maryland, and thus, "sound reasons exist for failure to seek
earlier relief’ U.S. v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000). The Supreme Court held that a
prosecutor commits a Due Process violation, requiring reversal of a conviction.
STATEMENT OF THE CASE
The issue presented, involves a genuine substantiate question, leading to a Jurisdiction error,
in a decision previously taken on United States v. Pena, 684 F.3d 1137 (11th Cir. 2012), this court
correctly established that: "the District Court has jurisdiction to adjudicate the offense unless there
was a separate limit on subject matter jurisdiction", and there is a substantial question undisclosed,
because the vessel is flagged under St Kitts & Nevis rather than Panama, materially evidence
pursuant to 19 CFR Part 4 in government possession in February through May 2010, “a factual

5

error material to the validity and regularity of the legal proceeding itself’ Carlisle v United States,
517 U.S. 416,429,116 S.Ct. 1460,1467(1963), not disclosed at trial nor pretrial neither previously
in this court, in government's possession, in violation of the prosecution constitutional duty to
disclose and was a materially exculpatory evidence favorable to the defense withheld by the
prosecutor from defense and thus, “sound reason exists for failing to seek relief earlier” Mills, 221
F. 3d at 1204, i.e. a fundamental error which renders the proceeding itself irregular and invalid.
Jurisdictional Error, as this court recognized in Appendix A (App. 2-3), is “a genuine claim that
the district court lacked jurisdiction to adjudicate the petitioner guilty may well be a proper ground
for coram nobis relief as a matter of law”, see Peter, 310 F 3d at 711, 715-16; and that the District
Court lacked subject matter jurisdiction to convict Pena for violating the MARPOL treaty,
because the vessel was actually “flagged under St Kitts & Nevis rather than Panama”, see
Appendix A (App. 3) and the error involves materially exculpatory evidence pursuant to 19 CFR
Part 4 factual error material not disclosed by the Prosecution in a due process violation, showing
that Pena is not a St Kitts & Nevis Ship’s Surveyor, as erroneous stated fraudulently in Superseding
Indictment, CR-Gov.Ex.:31 Appendix B (App. 5), the prosecution willful altering the country
party to the MARPOL, depriving Pena’s rights to defense, when in truth and in fact, the “Island
Express I”, is "flagged under St Kitts & Nevis rather than Panama", and Pena was not cognizable
by actually country party to the MARPOL, neither Pena was present in the physical location where
a court exercises its power at the time of MARPOL violation. See Appendix D (App 8-24).
However, this court acknowledge that “A writ of error Coram Nobis is a remedy available to
vacate a conviction when the petitioner has served his sentence and is no longer in custody, as
required for post-conviction relief under 28 U.S.C. § 2255”; United States v Peter 310 F 3d at 712.
The Jurisdiction error's involving "factual errors material to the validity and regularity of the
legal proceeding itself', Carlisle v. United States, 517U.S. 416,429,116S.Ct. 1460,1567(1996);
factual errors material not disclosed by the prosecution at trial nor pretrial, like the vessel entrance
or clearance statement, materially evidence pursuant to 19 CFR Part 4, that validate the country
party to the MARPOL, as it was, St Kitts & Nevis rather than Panama, at the time of MARPOL
violation in February through May 2010, proving that there is a “reasonable probability” that the
outcome of the trial would have been different, had the evidence been disclosed by the prosecutor,
see Kyles v Whitley 514 U.S. 419, 434 (1955). See Appendix D (App. 8-24).
Since coram nobis relief is available in this circumstance as a matter of law, this court abused
its power discretion to “Grant the Government’s motion for summary affirmance”, by willful
ignorance, knowingly that, criminal procedure law requires the prosecution disclosing materially
exculpatory evidence in government possession not disclosed and favorable to defense, and it’s a
constitutional duty to disclose because they render the proceeding itself irregular or invalid and
“Deny, the accompanying motion to stay the briefing schedule as moot”. See Appendix A (App.
3).

6

Factual and Procedural History.
This court recognized that jurisdiction errors are fundamental errors that warrant Coram Nobis
relief because they render the proceedings itself irregular and invalid, and that’s is exactly what
Pena is alleging in his Petition for WRIT OF ERROR CORAM NOBIS, because the vessel actually
flagged under St Kitts & Nevis rather than Panama, id, Peter at 712, it "is an extraordinary remedy
of last resort available only in compelling circumstance where necessary to archive justice." United
States v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2002), and as it is the case under the Supreme
Court's 1963 case Brady v Maryland, stating that the prosecution has an ironclad duty to disclose,
before trial, evidence that could undercut its case, “Brady material”, if the prosecution doesn't do
that, it violates the constitution, the undisclosed materially exculpatory evidence in government
possession, like vessel entrance or clearance statement, materially evidence pursuant to 19 CFR
Part 4, a "Brady material" to avoid misrepresentation, asserting that St. Kitts & Nevis rather than
Panama is the country party to the MARPOL and there is a substantial question that Pena is not a
St Kitts & Nevis surveyor, the actual Flag State in February through May 2010 at the time of
MARPOL violation see Appendix B (App. 5). Indeed, Pena lacks subject matter jurisdiction, and
thus, is a Jurisdictional Error that warrant Coram Nobis relief, see Appendix D (App.8-24).
As relevant to this case, both the United States and St Kitts & Nevis are signatories to MARPOL
treaty, id. U.S. Const. Art. II § 2. and Pena was not cognizable by them, nor present in the physical
location where a court exercises its power at the time of MARPOL violation, in February through
May 2010. See Appendix D, (App 8-24).
In United States v. Pena, 684 F.3d 1137 (11th Cir. 2012) this court found that Art. 4 (2) of the
MARPOL Convention granted the United States, as the port state, concurrent jurisdiction with the
Foreign Country Party to the MARPOL at the time of MARPOL violation, similar to 33 U.S. Code
§ 1907 (2)(A)(B) and also, this court recognized that, see id ("A genuine claim that the district
court lacked jurisdiction to adjudicate the petitioner guilty may well be a proper ground for coram
nobis relief as a matter of law") see also Peter, 310 F.3d at 711, 715-16, (concluding that a defect
in the indictment, which alleged specific conduct that was no longer a federal crime, constituted a
jurisdictional error that warranting coram nobis relief), see Appendix A (App. 2).
1340 U.N.T.S. at 185, Article 4 (2) of the Convention provides:
“Any violation of the requirements of the present Convention within the jurisdiction of any
party to the Convention shall be prohibited, and sanctions shall be established under the law
of the Party. Whenever such a violation occurs, that Party shall either: a) Cause proceeding
to be taken in accordance with its laws; or b) Furnish to the Administration of the Ship such
information and evidence as may be in its possession that a violation has occurred”.
The Supreme Court has explained that a writ of error coram nobis is "traditionally available
only to bring before the court factual errors material to the validity and regularity of the legal
proceeding itself'. Carlisle v. United States, 517 U.S. 416, 429, 116 S. Ct. 1460, 1567 (1996) and
here, the prosecution failed to disclose at trial, nor pretrial and Petitioner has served his sentence
and is no longer in custody and a writ of error coram nobis is a remedy available to vacate
conviction, because Pena has fully suffered their direct force and there is a genuine materially

7

exculpatory evidence not disclosed at trial nor pretrial neither in this court and the prosecution
never turned over that factual error material, which was clearly a Brady Material issued by
Homeland Security, materially evidence pursuant to 19 CFR Part 4, proving that St Kitts & Nevis
is the country party to the MARPOL rather than Panama at the time of MARPOL violation and
thus, is a Jurisdictional error that warrant coram nobis relief because they render the proceeding
itself irregular and invalid as a matter of law and under Act to Prevent Pollution from Ships (APP),
33 U.S.C. § 1907 Violations (2)(A)(B), which granted the United States, as the port state,
concurrent jurisdiction with the Foreign Country Party to the MARPOL (St Kitts & Nevis) at the
time of MARPOL violation, indeed, Pena lacks subject matter jurisdiction, because Jurisdictional
errors are fundamental errors that warrant coram nobis relief.
Of course, the only way to violate MARPOL is been a party of the crew at the time of the
MARPOL violation or been the owner or vessel operation/agency company in their personal
capacity over subject matter and its undisputed that Pena wasn't one of them and wasn't there in
February through May 2010.
There is a substantial question that “Island Express I” was detained on May 4th, 2010 in Florida
for 78 days, see Appendix D (8-24), a presumptive MARPOL violation occurred in February
through May 2010, Appendix B (App. 5) and the error involves a matter of the most fundamental
character where Flag State “St. Kitts & Nevis” issued a "Deletion Certificate" of Registration on
May 11th, 2010, seven (7) days after detention, see Appendix D (App. 11-12) not disclosed at trial
nor pretrial in government possession proving that she was sailing and operating under St. Kitts &
Nevis rather than Panama at the time of MARPOL violation and thus, summary affirmance was
not appropriate, cause of action by willful suppression or ignorance of the undisclosed materially
exculpatory evidence, because the prosecution violated the constitutional duty to disclose under
this rule at trial nor pretrial, “factual error material to the validity and regularity of the legal
proceeding itself’, Carlisle v United States, 517 U.S. 416, 429, 116 S.Ct. 1460, 1467 (1996), the
vessel entrance or clearance statement, materially evidence pursuant to 19 CFR Part 4, not
disclosed, is the vehicle which validating the country party to the MARPOL, that is, St. Kitts &
Nevis rather than Panama at the time of MARPOL violation and thus, Pena lacks subject matter
jurisdiction.
Since coram nobis relief is available under this circumstance as a matter of law, the district
court abused its power discretion by willful ignorance in summarily denied Pena's petition, see
Appendix B (App.5-6), excluding exculpatory materially evidence in government possession
pursuant to 19 CFR Part 4 leading to fraud, undermining the prosecution constitutional duty to
disclose as it mandate by Rule 3.8 (d), and thus, is a Jurisdiction Error, See Id. “A genuine claim
that the district court lacked jurisdiction to adjudicated the petitioner guilty”, see Peter, 310 F 3d
at 711, 715-16, (concluding that a defect in the indictment, which alleged specific conduct that
was no longer a federal crime, constituted a jurisdictional error warranting coram nobis relief), see
Appendix A (App. 3) and there is a “reasonable probability” that the outcome of the trial would
have been different, had the evidence been disclosed by the prosecutor that warrant Coram
Nobis as a matter of law. See Kyles v. Whitley, 514 U.S. 419 (1995) and Appendix D (App. 8-24).
Accordingly, a writ of error coram nobis must issue to correct the judgment that the District
Court never had power to enter.

8

REASONS FOR GRANTING THE WRIT
A petition for a writ of certiorari will be granted only for compelling reasons, Alikhani v. United
States, 200 F.3d 732, 734 (11th Cir. 2000). This court recognized that a petitioner may only obtain
Coram Nobis relief where:
(l)“There is and was no other available avenue of relief’.
On July 22nd, 2020, this court has entered a controversial decision stating that “the District
Court lacked subject-matter jurisdiction to convict him for violating the MARPOL treaty because
the vessel actually flagged under St Kitts & Nevis rather than Panama, but he offers no support
either to prove this assertion or to show that it rendered the proceeding itself irregular or invalid”
Appendix A (App 3), a clearly erroneous error, where Pena is the victim, and there is a substantial
question that “the Prosecution should have the Constitutional Duty to Disclose” as a matter of law,
because they rendered the proceeding itself irregular and invalid, however, the Act to Prevent
Pollution from Ship (APPS) best known as “MARPOL” in Article 5 (2) provides:
“A ship required to hold a certificate in accordance with the provisions of the regulations is
subject, while in the ports or offshore terminals under the jurisdiction of a Party, to inspection
by officers duly authorized by that Party. Any such inspection shall be limited to verifying that
there is on board a valid certificate, unless there are clear grounds for believing that the
condition of the ship or its equipment does not correspond substantially with the particulars of
that certificate. In that case, or if the ship does not carry a valid certificate, the Party carrying
out the inspection shall take such steps as will ensure that the ship shall not sail until it can
proceed to sea without presenting an unreasonable threat of harm to the marine environment.
That Party may, however, grant such a ship permission to leave the port or offshore terminal
for the purpose of proceeding to the nearest appropriate repair yard available”.
When District courts doesn't address the Jurisdictional issues in a logical and pragmatic way, it
causes confusion for subsequent courts relying on that case as a precedent, leading to alteration or
fraud with prejudice to the victim, undermining the prosecution constitutional duty to disclose
materially exculpatory evidence in government possession pursuant to 19 CFR Part 4, factual error
material, validating the country party to the MARPOL, willful not disclosed, that warrant coram
nobis relief, the cause of action of this petition, involving a high, “factual error material not
disclosed by the prosecutor to the validity and regularity of the legal proceeding itself’ Carlisle v
United States, 517 U.S. 416, 429, 116 S.Ct. 1460, 1467 (1996) and thus, "sound reasons exist for
failure to seek earlier relief’ U.S. v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000) and that’s a
Constitutional violation, when in truth and in fact the subject matter is a St Kitts & Nevis Ship
rather than Panama and Pena lacks subject matter jurisdiction. Appendix D (App. 8-24).
Southern District Court of Florida lacked jurisdiction over Pena because he is not a party and
was not cognizable by the actually country party to the MARPOL and did not have any duty to
conduct a complete MARPOL inspection under country party to the MARPOL, “St Kitts &
Nevis”, nor Pena was present in the physical location, where a court exercises its power at the
time of MARPOL violation in February through May 2010, and “is a genuine claim that the district

9

court lacked jurisdiction to adjudicate the petitioner guilty” see Peter, 310 F 3d at 711, 715-16,
Appendix A (App.3) and thus, Pena lacks subject matter jurisdiction as a matter of law.
In Brady Rule, The Supreme Court requires prosecutors to disclose materially exculpatory
evidence in the government possession favorable to the defense, as it is, materially evidence
pursuant to 19 CFR Part 4 to avoid fraud, and to validate the country party to the MARPOL at the
time of MARPOL violation, see Appendix D (App 8-24). The defendant bears the burden to prove
that the undisclosed evidence was both material and favorable, in other words, the defendant must
prove that there is a “reasonable probability” that the outcome of the trial would have been
different, had the evidence been disclosed by the prosecutor. See Kyles, 514 U.S. at 433 (1955)
because the vessel entrance or clearance statement, pursuant to 19 CFR Part 4 avoiding alteration
and showing that the country party to the MARPOL was St Kitts & Nevis and because they
rendered the proceeding itself irregular or invalid and thus, "sound reasons exist for failure to seek
earlier relief’ U.S. v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000)
Its undisputed that Pena isn’t a Federal Officer, like a CBP or USCG officer nor Island
Express's agent or crew’s member to get access the exclusive CBP Form for vessel entrance or
clearance statement issued by U.S. Homeland Security, as it is, materially pursuant to 19 CFR Part
4, factual error material not disclosed and the prosecution has constitutional duty to disclose at
trial or pretrial or at appeal court to validate the country party to the MARPOL at the time of
MARPOL violation as required by 33 U.S. Code § 1907, Violations, and thus, is "sound reasons
exist for failure to seek earlier relief ’ U.S. v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000).
Pena lacks access to get factual error material pursuant to 19 CFR Part 4 in government
possession, in deprivation of his right to defense at trial, or pretrial motion, neither in previously
Appeal, and G&G Marine Inc. the vessel operation company destroyed all evidence related to
country party to the MARPOL at the time of MARPOL violation to ambush Pena by
altering/forgery the country party to the MARPOL, in deprivation of Pena’s right to his defense,
“where, as here, it is necessary to achieve justice when no other remedy is available and sound
reasons exist for failure to seek earlier relief.” U.S. v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000)
and thus, is a Jurisdictional error warranting Coram nobis because render the proceeding itself
irregular or invalid. See Appendix D (App. 8-24).
Pro Se Litigants Should Have Full Constitutional Rights Regarding Jurisdiction's Judgments
error and should have the same constitutional protections as litigants who hire large big law firms.
Petitioner's rights were trampled on in every court, both state and federal.
Pro se litigants, need to be reassured that their rights will not be trampled on because they don't
have an attorney. In this case, Pena had invested all his capital in his defense for this Jurisdictional
Judgement error, years of hard work for the safe of his family. Therefore, Petitioner Pena, had no
choice except to proceed pro Se.
The Vessel Entrance or Clearance Statement pursuant to 19 CFR Part 4 is a substantive question
as a matter of law, a factual error materially not disclosed, issued by homeland security to validate
the ship registered in the nationality of a country party to the MARPOL, as it is, St Kitts & Nevis
rather than Panama at the time of MARPOL violation, and Pena is not cognizable by this Country

10

Party to the MARPOL and there is prosecution constitutional duty that requires disclosing
materially exculpatory evidence that is favorable to defense, a requirement similar to the
constitutional disclosure requirements established by the Supreme Court in Brady v. Maryland and
thus, the Supreme Court held that a prosecutor commits a flagrant Due Process violation, and thus,
is requiring reversal of a conviction, because Jurisdictional errors are Fundamental errors that
warrant coram nobis relief, because they render the proceeding itself irregular and invalid. See
Appendix D (App. 8-24).
(2)“There is a substantive error that involves a matter of fact of the most fundamental
character which has not been put in issue or passed upon and which render the proceeding
itself irregular and invalid”, Jurisdiction error.
The Supreme Court has explained that a writ of coram nobis is “traditionally available only to
bring before the court factual errors material to the validity and regularity of the legal proceeding
itself’. Carlisle v United States, 517 U.S. 416, 429, 116 S. Ct. 1460, 1467 (1996), and in Brady
stated that the prosecution has a constitutional duty to disclose, that is triggered by the potential
impact of favorable but undisclosed evidence, See Kyles v Whitley 514 U.S. 419,, 434 (1995), if
the prosecution does not disclose material evidence under this rule and prejudice has ensued, the
evidence will be suppressed and... “the defendant bears the burden to prove that the undisclosed
evidence was both material and favorable” See Appendix D (App. 8-24). Here, the prosecution
failed to disclose the country Party and the Person in his personal capacity under the country party
to the MARPOL at the time of MARPOL violation, as it is, materially evidence pursuant to 19
CFR Part 4, factual error material, not disclosed, occurred in February through May 2010 and is
favorable to the validity and regularity of the legal proceeding itself, the willful suppress of
exculpatory materially evidence constituted prosecution’s violation constitutional duty to disclose,
committing in due process violation, in deprivation of Pena rights to defense, because Pena lacks
subject matter jurisdiction.
However, this court recognized “that Jurisdiction Error are fundamental error that warrant
coram nobis relief because they render the proceeding itself irregular and invalid”, and there is a
substantive error involving genuine matter of fact, materially exculpatory evidence in government
possession not disclosed at trial nor pretrial, knowingly withheld by this prosecutor, materially
evidence pursuant to 19 CFR Part 4, factual error material and Pena is offering in his Coram nobis
petition, validating ship registered in the nationality of a country party to the MARPOL at the time
of MARPOL violation, proving that the vessel is operating under St Kitts & Nevis Auth. rather
than Panama, and thus, is a Jurisdictional error that warrant Coram Nobis Relief as a matter of law
because Pena lacks subject matter jurisdiction. See Appendix A (App.3), Appendix D (App. 8-24)
In Alikhani v. United States, 200 F.3d 732 (2000), the court state that a "genuine claim that the
district court lacked jurisdiction to adjudicate the petitioner guilty may well be a proper ground for
coram nobis relief as a matter of law." Id. at 734. Indeed, jurisdictional error is by its nature of
such a "fundamental character" as to render proceedings "irregular and invalid,” Morgan, 346 U.S.
at 509 n. 15, 74 S.Ct. 247, and Coram nobis relief affords a procedural vehicle through which such
error may be corrected, because the vessel is flagged under St Kitts & Nevis rather than Panama
and Pena is not a St Kitts & Nevis surveyor and thus, District Court lacked subject-matter
jurisdiction to convict Pena for violating MARPOL treaty.

11

When a court without jurisdiction convicts and sentences a defendant, the conviction and
sentence are void from their inception and remain void long after a defendant has fully suffered
their direct force. Moreover, as the Supreme Court reiterated in Spencer v. Kemna, 523 U.S. 1,
118 S. Ct. 978, 140 L.Ed.2d 43 (1998), "it is an obvious fact of life that most criminal convictions
do in fact entail adverse collateral legal consequences." Id. at 12,118 S. Ct. 978 (internal quotation
marks omitted). See also Wolfe v. Coleman, 681 F.2d 1302, 1305 (11th Cir. 1982); Minor v.
Dugger, 864 F.2d 124, 126 (11th Cir. 1989).
The Supreme Court ruled that “the prosecutor is responsible for disclosing anything known
materially by members of the prosecution team”, which included USCG special agent, forensic
investigators and other experts. Under Kyles v. Whitley, a case interpreting the Brady Doctrine,
the government cannot claim ignorance. It must actually find out what information is in the files
of the people on whose work and expertise it relies.
Therefore, the Brady material, involving genuine matter of fact and prosecutor misleading judge
over withholding evidence, Vessel Entrance or Clearance Statement, materially evidence pursuant
to 19 CFR Part 4, the vehicle to disclose person & country party to the MARPOL and qualified as
a Brady material to this case, because it validate the ship registered in the nationality of a country
party to the MARPOL at the time of MARPOL violation, and is substantially that Pena was not
cognizable by actually Flag State “St Kitts & Nevis” that is the party to the MARPOL, neither
Pena was present in the physical location where district court exercises its power at the time of
MARPOL violation, in February through May 2010, see Appendix B (App 5). In Peter this court
held, “a genuine claim that the district court lacks jurisdiction to adjudicate the petitioner guilty
may well be a proper ground for coram nobis relief as a matter of law”, see Peter, 310 F 3d at
711, 715-16, (concluding that a defect in the indictment, which alleged specific conduct that was
no longer a federal crime, constituted a jurisdictional error that warranting coram nobis relief),
Appendix A (App. 3) and thus, Pena lacks subject matter jurisdiction.
Even though the Eleventh Circuit has stated that they review district court’s denial of coram
nobis relief de novo, recognized that, Jurisdictional error are fundamental error that warrant Coram
nobis relief because they render the process itself irregular and invalid, but, this court’s stated
inconsistent statement “that Pena offers no support” and Pena is the victim, mislead due to the
prosecution effort over withholding factual error materially not disclosed at trial nor pretrial,
undermining the prosecution constitutional duty to disclose because the prosecution had the factual
error material in their possession that should disclose the actually country party to the MARPOL
“St Kitts & Nevis” rather than Panama, at the time of MARPOL violation, and thus, “sound reasons
exist for failure to seek earlier relief’ U.S. v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000), and the
material error came from CBP Form 1300 (02/02) issued by homeland security, materially
evidence pursuant to 19 CFR Part 4 the vehicle to disclose the country party to the MARPOL and
signed by the captain of the vessel and CBP officer and thus, it’s the Rule of Law, and the
prosecution willful suppress materially evidence, not disclose to punish the defense, i.e. a flagrant
constitutional violation, and there is a substantial question that the district court did abuse it’s
power discretion in denying Pena’s Petition for a writ of coram nobis as a matter of law, the
prosecution never turned over that information.

12

Courts camouflage the issues of Jurisdictional judgments error by skipping them, making a
gesturing remark rather than going by their own purported mandatory rule, Rule 3.8 (d) or BRADY
Rule in a flagrant abuse of power discretion. See Appendix A (App. 3), Appendix B (App. 5-6). If
courts were mandated to address Jurisdictional judgments error, it would help cut down on court
time on Jurisdictional judgment error cases, see Appendix A (App 1).
The reason the case has continues to go on is prosecutor have tried to put lipstick on the
Jurisdiction judgment error by using red-herring arguments, in violation of prosecution
constitutional duty to disclose materially exculpatory evidence in government possession not
disclose at trial nor pretrial, Appendix D (App 8-24). If the court addressed jurisdiction judgments
error in contrast with voidable judgments, it would help lower courts address the jurisdiction
judgment error issue, that warrant Coram nobis relief, and thus, "sound reasons exist for failure to
seek earlier relief' U.S. v. Mills, 221 F.3d 1201, 1203, (11th Cir. 2000). See also in Appendix F
(App.30), Criminal Jury Trial, Transcript Excerpts.
In Brady the Supreme Court recognized that “society wins not only when the guilty are
convicted but when criminal trials are fair,” and that a prosecutor should not be the “architect of
proceeding that does not comport with standards of justice”; where the primary duty of state bar
organization, which license and govern conduct by attorneys in their Jurisdiction, “IS TO
PROTECT THE PUBLIC”, and the bottom-line, Pena wasn't protected, nor present in the physical
location where a court exercises its power at the time of MARPOL violation, neither Pena was
cognizable by the country party to the MARPOL in February through May 2010, materially
evidence pursuant to 19 CFR Part 4 not disclosed, withheld by the prosecution, knowingly that the
country party to the MARPOL in the subject matter was “St. Kitts & Nevis” rather than Panama,
asserted in Appendix D (App. 8-24), where the USCG special agent who wrote the defect's
indictment recognized St Kitts & Nevis the country party to the MARPOL. Appendix F (App. 30).
There is a “reasonable probability” that the outcome of the trial would have been different, had
the evidence been disclosed by the prosecutor that warrant Coram nobis relief as a matter of
law sees Kyles v Whitley 514 U.S. 419,434 (1955), Appendix D (App. 8-24), materially evidence
pursuant to 19 CFR Part 4, willful not disclosed at trial nor pretrial, e.g. materially exculpatory
evidence favorable to defense and constitute a flagrant Constitutional Due Process violation by
this prosecution in its face that requiring reversal of conviction.
Wherefore, Petitioner Pena, had no choice except to proceed pro Se and thus, is calling for an
exercise of this Court's supervisory power, pursuant to Rule 10 (a) (c).
Accordingly, a writ of error coram nobis must issue to correct the judgment that the court never
had power to enter.

13
CONCLUSION
For the forgoing reasons, this court should be granted the Petition for Writ of Certiorari. This
court may also wish to consider summary reversal the conviction and sentence for count 27 & 28
as a matter of law.
Respectfully submitted,

HUGO PENA
10241 NW 9th, St. Cir # 109
Miami, FL 33172
Telephone: 786-368-9545
Email: hpena01@yahoo.com
Petitioner Pro Se
Date: Oct. 7th . 2020.

14

CERTIFICATE OF COMPLIANCE

HUGO PENA
PETITIONER
v.
UNITED STATES OF AMERICA

RESPONDENT

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of certiorari
contains 6615 words, excluding the parts of the petition that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on, October 7nd, 2020.
Respectfully submitted,

A

HUGO PENA
10241 NW 9th, St. Cir # 109
Miami, FL 33172
Telephone: 786-368-9545
Email: hpena01@yahoo.com
Petitioner Pro Se
ZPZ&
Date: Ocf

